APPENDIX A
Case: 19-12579

Date Filed: 12/19/2019

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-12579-E
SAMUEL KWUSHUE,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
Appeal from the United States District Court
for the Northern District of Georgia
ORDER:
Samuel Kwushue moves for a certificate of appealability (“COA”) in order to appeal the
denial of his 28 U.S.C. § 2255 motion to vacate. To merit a COA, he must show that reasonable
jurists would find the merits of an underlying claim debatable. See 28 U.S.C. § 2253(c)(2): Slack
v. McDaniel, 529 U.S. 473, 478 (2000). Because Kwushue has failed to satisfy the Slack test for
his.claims, his motion for a COA is DENIED.

n

UNITED STATES CIRCUIT JUDGE

APPENDIX B
Case: 19-12579

Date Filed: 02/10/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-12579-E
SAMUEL KWUSHUE,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appel lee.
Appeal from the United States District Court
for the Northern District of Georgia

Before: GRANT and LUCK, Circuit Judges.
BY THE COURT:
Samuel Kwushue has filed a motion for reconsideration of this Court’s order denying a
certificate of appealability, following the denial of his motion to vacate sentence, 28 U.S.C. § 2255.
Upon review, Kwushue’s motion for reconsideration is DENIED because he has offered no new
evidence or arguments of merit to warrant relief.

appendix^c
Case l:15-cr-00398-SCJ-JFK Document 146 Filed 06/27/19 Page 1 of 4

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
SAMUEL KWUSHUE,
Movant,
CRIMINAL ACTION NO.
l:15-CR-0398-SCJ

v.
UNITED STATES OF AMERICA,
Respondent.
ORDER

Presently before the Court is the Magistrate Judge’s Report and
Recommendation (R&R) recommending that the instant motion to vacate brought
pursuant to 28 U.S.C. § 2255 be denied. [Doc. 141]. Movant has filed his objections
in response to the R&R. [Doc. 143].
A district judge has broad discretion to accept, reject, or modify a magistrate
judge’s proposed findings and recommendations. United States v. Raddatz. 447 U.S.
667, 680 (1980). Pursuant to 28. U.S.C. § 636(b)(1), the Court reviews any portion of
the Report and Recommendation that is the subject of a proper objection on a de novo
basis and any non-objected portion under a “clearly erroneous” standard. “Parties
filing objections to a magistrate’s report and recommendation must specifically
identify those findings objected to. Frivolous, conclusive or general objections need
not be considered by the district court.” Marsden v. Moore. 847F.2d 1536,1548 (11th
Cir. 1988).
A0 72A

Case l:15-cr-00398-SCJ-JFK Document 146 Filed 06/27/19 Page 2 of 4

On February 29, 2016, Movant pled guilty to eight counts of wire fraud in
violation of 18 U.S.C. § 1343 in connection with his operation of a scheme in which
he made discounted cash payments to Supplemental Nutrition Assistance Program
recipients in exchange for their food stamps. [Doc. 25]. On August 19, 2016, this
Court imposed a fifty-one month term of incarceration and set restitution at
$5,249,958.57. [Doc. 40]. Movant appealed, and the Eleventh Circuit affirmed.
United States v. Kwushue. 735 F. App’x 693, 694 (11th Cir. 2018). On November 5,
2018, the United States Supreme Court denied certiorari. Kwushue v. United States,
139 S. Ct. 473 (2018). Movant then filed the instant § 2255 motion raising eight
grounds for relief.
In the R&R, the Magistrate Judge recommends denying the § 2255 motion. The
Magistrate Judge concluded that the claims raised in Movant’s Grounds 1-7 were
either (1) decided adversely to him by the Eleventh Circuit, Stoufflet v. United States.
757 F.3d 1236, 1239 (11th Cir. 2014) (matters decided adversely to movant on direct
appeal cannot be relitigated under § 2255); (2) procedurally defaulted and Movant
failed to demonstrate cause and prejudice to overcome the procedural bar; (3) not
supported by the record; or (4) not cognizable under § 2255.
In his Ground 8, Movant raised eight claims of ineffective assistance of counsel.
Analyzing those claims under the proper standard announced in Strickland v.

AQ72A
(Rev.8/82)

Case l:15-cr-00398-SCJ-JFK Document 146 Filed 06/27/19 Page 3 of 4

Washington. 466 U.S. 668, 687 (1984), the Magistrate Judge concluded that Movant
had failed to demonstrate that his counsel was ineffective. Certain of Movant’s
ineffective assistance claims were directly contradicted by the record while others were
foreclosed by the Eleventh Circuit’s opinion affirming his conviction and sentence.
With regard to the remainder of those claims, the Magistrate Judge concluded that
Movant had failed to demonstrate that his counsel had been deficient and/or that he had
established prejudice under Strickland.
In his objections, Movant mostly reargues his claims without pointing out how
the Magistrate Judge supposedly erred. Where he does claim error on the part of the
Magistrate Judge, his arguments are either entirely conclusory or otherwise unavailing.
Having performed a de novo review if the record in light of Movant’s objections, this
Court now holds that the Magistrate Judge’s findings and conclusions are correct.
Accordingly, the R&R, [Doc. 141], is hereby ADOPTED as the order of this Court,
and the pending § 2255 motion, [Doc. 106], is DENIED. The Clerk is DIRECTED
to close Civil Case Number 1:18-CV-5591-SCJ.
This Court further agrees with the Magistrate Judge that (1) “the motion and the
files and records of the case conclusively show that the prisoner is entitled to no
relief,” 28 U.S.C. § 2255(b), and no hearing is required, and (2) Movant has failed to
make a substantial showing of the denial of a constitutional right, and a Certificate of
3
A0 72A
(Rev.8/82)

Case l:15-cr-00398-SCJ-JFK Document 146 Filed 06/27/19 Page 4 of 4

Appealability is DENIED pursuant to 28 U.S.C. § 2253(c)(2). Movant’s motions for
a Certificate of Appealability, [Docs. 144, 145], are likewise DENIED.
In response to Movant’s motions to quash the writ of continuing garnishment,
[Docs. 89, 109], this Court points out that, in affirming Movant’s conviction and
sentence, the Eleventh Circuit concluded that this Court did not err in determining the
restitution amount of $5,249,958.57. Moreover, the record flatly contradicts Movant’s
contention that the Government and this Court violated the statutory notice
requirements in connection with the writ of continuing garnishment. Finally, the
Government has now filed amended packages for writs of continuing garnishment,
[Docs. 123, 125], which set forth the correct restitution and special assessment
amounts. Accordingly, the motions, [Doc. 89, 109], are DENIED.
As this Court has denied Movant’s § 2255 motion, his motion to withhold the
final disposition order with respect to the writ of continuing garnishment pending the
outcome of the § 2255 motion, [Doc. 128], is DENIED as moot.
IT IS SO ORDERED, this 27th day of June, 2019.

s/Steve C. Jones
STEVE C. JONES
UNITED STATES DISTRICT JUDGE

4
A0 72A
(Rev.8/82)

